a
No. 19-360
In the

Supreme Court of the United States
Frances K. Konieczko,
Lawrence W. Konieczko,
Laurie F. Konieczko,
Petitioners,
v.
Adventist Health System/Sunbelt, Inc.,
sponsored by the Seventh-day Adventist Church,
d/b/a AdventHealth Altamonte Springs,

formerly Florida Hospital Altamonte,
and d/b/a AdventHealth Orlando,
formerly Florida Hospital Orlando,
Respondents.
On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal
PETITION FOR REHEARING
IN SUPPORT OF THE
PETITION FOR WRIT OF CERTIORARI
Frances K. Konieczko
Lawrence W. Konieczko
Laurie F. Konieczko
Self-Represented
PO Box 540542
Orlando, FL 32854

QUESTIONS FOR REVIEW
1. This Court, the Supreme Court of the United
States, granted enemy combatants the right to be
heard, therefore, shouldn’t we, American-horn
citizens of the USA, with the husband of Frances,
and the father of Lawrence and Laurie, as well as
the grandfather of Lawrence and Laurie, having
been honest, decent, patriotic American men who
sacrificed for this country, the United States of
America, and served honorably in the United
States military, be justly granted full and fair
opportunities to be heard?
2. Shall this Court allow any judge to abuse his
or her power and illegally violate the Constitution
of the United States and unconstitutionally deprive
us of our civil rights and other rights guaranteed to
us by the Constitution of the United States,
including, but not limited to, our right to be heard?
3. Shall this Court allow judges to willfully,
intentionally, and maliciously make false
statements, refuse to disqualify themselves when
served with timely, legally-sufficient motions to
disqualify, and illegally not remove a judge when
by law they are required to do so?
4. Shall this Court allow judges to illegally
refuse to disclose exp arte communications,
interactions, and monetary transactions?
(Questions continued on next page.)
i

QUESTIONS FOR REVIEW (CONTINUED)
5. Shall this Court allow judges, lawyers, and
respondents to obstruct justice?
6. Shall this Court allow this case to be illegally
dismissed “with prejudice”, especially when the
defendants have been obstructing justice and
withholding evidence, and this case has not been
amended one time, which is clearly provided for by
the Florida Rules of Civil Procedure, and also for
which there is legal precedent, having been
established by many court cases?
7. Shall this Court allow the record of this case
to stand fraudulently falsified, with Judge LeBlanc,
Judge Frederick Lauten, and judges at the Fifth
District Court of Appeal refusing to have the record
corrected?
8. Shall this Court immediately order the
AdventHealth Care Center Apopka South, formerly
known as the Florida Living Nursing Center
Apopka, to immediately cease and desist from the
unhealthy, inhumane practice of strapping down
patients in their beds against their will?
9. Shall this Court order the respondents to
immediately cease and desist from hypnotizing
patients against their will?

n

TABLE OF CONTENTS
Page
Questions,

1

Table of Authorities

IV

Introduction,

1

Argument,

1

Conclusion,

4

Certificate for Petition for Rehearing
Attachments - Sixty-three (63) pages

in

TABLE OF AUTHORITIES
The Supreme Judge of the World
Jesus Christ, King of Kings
and Lord of Lords............... .

Pages 1, 2, 3, 4

Constitution and Statutes
U.S. Constitution.

Pages 1, 2, 3, 4

Amend I, U.S. Constitution.

Pages 1, 2, 3, 4

18 U.S.C. 242

Pages 1, 2, 3, 4

42 U.S.C. 1983____

Pages 1, 2, 3, 4

IV

INTRODUCTION
We file this Petition for Rehearing for the honor
of our Lord and Savior, Jesus Christ, and our
beloved family member, William A. Konieezko, the
very precious husband and father, for whom
we must have justice. Also, we seek justice to stop
the evil perpetrators of malicious wrongdoing, so
that others will not be harmed by them.
ARGUMENT
It is very important that all of the issues
contained in the five applications sent by us
to Justice Clarence Thomas be resolved. These
five applications are contained in the attached
sixty-three (63) pages, along with proofs of delivery
to this Court.
One important issue is that we have been
seeking since July 2019 for Justice Thomas to give
us guidelines for our appendix, as explained in our
applications to him.
Another important issue, which we wrote to
Justice Thomas about, is that our house was
criminally set on lire, and we explained to him
issues pertinent. The evil crime of setting our
house on fire was perpetrated six days before the
Reply Brief for this case was due, and caused our
house to become classified as “uninhabitable.”
1

Therefore, it is very important for this Court to
provide us more time to file our Reply Brief and
Supplemental Briefs. Before the fire, we had been
working on our Reply Brief, being that it is very,
very important that we not be cheated out of our
Constitutional right to be heard, so that we can
refute the egregious, unethical lies and appalling
fraud upon the court perpetrated by the
respondents.
The morning of the fire, right before smoke was
seen in the house, just before the smoke alarm
went off, there was a very obvious, dangerous, toxic
smell of gasoline, so we knew this was very evil,
nefarious, criminal arson,
The fire spread
extremely fast - very, very quickly filling the house
with very horrible smoke. It was very obvious that
evil criminals wanted to kill our entire family.
Later, after the fire had been put out, supposed
firemen were shockingly very tyrannical and nasty
and would not let us go into our own house, or even
go near our house. Immediately after the supposed
firemen left in the fire truck, we, (Lawrence and
Laurie), ran into our house. The first thing that we
noticed was that a large storage bin, (which had
been filled from front to back with court documents,
legal documents, and evidence), had been set up
high on a table, with the debris brushed off. After
opening the bin, we were shocked to see hundreds
of pages of documents had been stolen, including
many documents we had been planning to use for
our SCOTUS Reply Brief and Appendix.
2

Our Constitutional rights must be upheld by
this Court so that we may have time to respond to
the many points raised in the respondents’
opposition brief with a full Reply Brief, with an
attached Appendix containing many pages of
documentary evidence, especially since the
opposition brief perpetrates very evil lies and very
malicious fraud upon the court. Also, we have been
preparing Supplemental Briefs.
Our Constitutional rights have been horribly
violated in the lower courts, and we have NOT had
full and fair opportunities to be heard.
In the application which we sent to Justice
Thomas in July, we set forth the issues regarding
criminal tampering of our mailings to SCOTUS,
and criminal hacking of our computer, including
the blocking of our computer from certain websites
such as the Federal Bureau of Investigation and
the Department of Justice.
Additionally, booklets which had been carefully
proofread by us, then returned to us by SCOTUS,
had pages changed around, and have also been
ripped up and gouged.

3

CONCLUSION
For the foregoing reasons, we look to this Court
to take action to protect our rights, as guaranteed
by the Constitution of the United States, to address
all of the issues presented in our five applications
to Justice Clarence Thomas, and to give us the time
to prepare our very important Reply Brief, and our
Supplemental Briefs.

GUARANTEES OUR RIGHTS. INCLUDING.
BUT NOT LIMITED TO. OUR RIGHT TO
BE HEARD. OUR RIGHT TO LIBERTY. AND
OUR RIGHT TO BE GRANTED JUSTICE
ACCORDING TO THE LAW.
Frances K. Konieczko
Lawrence W. Konieczko
Laurie F. Konieczko
Self* Represented
PO Box 540542
Orlando, FL 32854
December 2019
cc: Attorney General of the United States,
William Barr,
pertinent to confidential investigations
4

Certificate for Petition for Rehearing
This hereby certifies that this Petition is
presented in good faith and in accordance with the
grounds specified in Rule 44 of the SCOTUS Rules.

December 1 7 . 2019:

Frances K. Konieczko

*W.
Lawrence W. Konieczko
<^ouuLnZo 5^,
Laurie F. Konieczko

